GR-40-98-012
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grant to the Louisville, Mississippi, School District
 
GR-40-98-012
June 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
Universal Hiring Program (UHP) grant awarded by the U.S. Department of Justice (DOJ),
Office of Community Oriented Policing Services (COPS), to the Louisville, Mississippi,
School District (Louisville School District). The Louisville School District received a
UHP grant of $47,329 (No. 96-UM-WX-1298) to hire one additional officer and a supplemental
UHP grant of $47,330 for another officer. The purpose of the additional officers is to
enhance community policing efforts within the school's environment.
In brief, the Louisville School District did not maintain time and attendance records
in a manner to adequately support the officer's pay; therefore, related salaries and
fringes totaling $12,235 are unsupported.
#####